Audit Report




OIG-08-030
TERRORIST FINANCING/MONEY LAUNDERING: Responsibility
for Bank Secrecy Act Is Spread Across Many Organizations
April 9, 2008




Office of
Inspector General
Department of the Treasury
Contents

Audit Report ................................................................................................. 1

   Summary .....................................................................................................2

   Overview of BSA and Related Laws..................................................................5

   Treasury Has Lead Responsibility for BSA But Responsibility for Compliance
   and Enforcement Is Shared Among Many Agencies ............................................9

   FinCEN and IRS Have Made Efforts to Improve BSA-Related Coordination and
   Communication ............................................................................................20

   BSA-Related Cost and Performance Data Are Limited .......................................26

   Concluding Observations ...............................................................................31

   Recommendations ........................................................................................32

Appendices

   Appendix     1:      Objective, Scope and Methodology ......................................... 36
   Appendix     2:      Key Federal Anti-Money Laundering Laws................................ 38
   Appendix     3:      List of BSA-Related Audit Reports ...........................................43
   Appendix     4:      Management Response ..........................................................46
   Appendix     5:      Major Contributors to This Report ........................................... 49
   Appendix     6:      Report Distribution.................................................................50

Abbreviations

   BSA                          Bank Secrecy Act of 1970, as amended
   CFTC                         Commodity Futures Trading Commission
   DHS                          Department of Homeland Security
   DOJ                          Department of Justice
   FBI                          Federal Bureau of Investigation
   FDIC                         Federal Deposit Insurance Corporation
   FinCEN                       Financial Crimes Enforcement Network
   FINRA                        Financial Industry Regulatory Authority
   Federal Reserve              Federal Reserve System
   IRS                          Internal Revenue Service
   LEA                          law enforcement agency

                        TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                           Page i
                        Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
MOU           memorandum of understanding
MSB           money services business
NASD          National Association of Securities Dealers
NCUA          National Credit Union Administration
NYSE          New York Stock Exchange
OMB           Office of Management and Budget
OCC           Office of the Comptroller of the Currency
OFAC          Office of Foreign Assets Control
OTS           Office of Thrift Supervision
SAR           suspicious activity report
SEC           Securities and Exchange Commission
SRO           self-regulatory organization
TFI           Office of Terrorism and Financial Intelligence




       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page ii
       Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General




                      April 9, 2008

                      James H. Freis, Jr.
                      Director, Financial Crimes Enforcement Network

                      Among Treasury’s most critical missions is that of administering
                      the Bank Secrecy Act (BSA). Accordingly, we prepared this report
                      to serve as a source of reference for Treasury policy makers and
                      other stakeholders who contemplate this important subject.

                      Enacted in 1970, BSA requires that financial institutions file certain
                      reports and maintain specified records to provide a paper trail of
                      the activities of money launderers that can be used by law
                      enforcement officials. Since 1970, BSA has been amended a
                      number of times to increase its effectiveness, including, in October
                      2001, by title III of the USA PATRIOT Act, which (1) added
                      provisions to prevent, detect, and prosecute terrorist financing and
                      international money laundering at financial institutions and
                      (2) extended anti-money-laundering requirements to additional
                      types of financial service providers. (Throughout the remainder of
                      this report, we refer to these laws together as BSA).

                      In September 2002, by virtue of the USA PATRIOT Act, the
                      Secretary delegated authority to implement and administer BSA to
                      the Director of the Financial Crimes Enforcement Network
                      (FinCEN). As a result, the Director of FinCEN has overall authority
                      for BSA enforcement and compliance, including coordination and
                      direction of procedures and activities of all other agencies also
                      exercising delegated authority under the BSA regulations.1 FinCEN



1
    31 CFR §103.56.

                      TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for             Page 1
                      Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                        reports to the Under Secretary for Terrorism and Financial
                        Intelligence (TFI).2

                        Our objective for this review was to identify and describe
                        Treasury’s authority and responsibility for the administration of
                        BSA. To meet our objective, we gathered information to answer
                        the following questions:

                        •   Which major domestic organizations are involved in the
                            enforcement and compliance of BSA and what authority does
                            Treasury have over the BSA-related efforts of these
                            organizations?
                        •   How does Treasury direct and coordinate BSA enforcement and
                            compliance?
                        •   Are government-wide BSA costs and performance data available
                            to link resources to results?

                        We obtained information about Treasury’s role in and responsibility
                        for administering and enforcing BSA laws and regulations, other
                        organizations involved with the enforcement and compliance of
                        these laws and regulations, coordination of these organizations’
                        efforts, resources devoted to these efforts, and measurement of
                        these efforts. We conducted our review from February 2005 to
                        December 2006, but continued to seek clarification of certain
                        information from various entities through September 2007.
                        Appendix 1 contains a more detailed description of our objective,
                        scope, and methodology.

Summary
                        We identified 12 organizations that have substantial BSA
                        responsibilities.3 The organization with the primary responsibility is
                        FinCEN, which administers BSA. In this role, FinCEN is supported
                        by the Internal Revenue Service’s (IRS), Enterprise Computing
                        Center – Detroit to maintain BSA-related databases. IRS also
                        examines certain financial institutions for BSA compliance. In
                        addition to IRS, 7 federal financial institution regulators and 3 self-

2
 Treasury Order 105-17, paragraph 1.(e).
3
 In addition to these 12 there are many more federal organizations with BSA responsibilities. In
addition, individual states and U.S. territories examine financial institutions for BSA compliance.

                        TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                      Page 2
                        Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                       regulatory organizations (SRO) ensure compliance with BSA by
                       their regulated institutions. Five of the financial institution
                       regulators and the 3 SROs are outside of Treasury.

                       We also identified 9 federal law enforcement agencies (LEA) –
                       1 within Treasury and 8 others – that significantly use BSA data.
                       Two of these agencies are also specifically delegated authority for
                       investigating criminal violations of the BSA regulations—1 within
                       Treasury and another that was formerly within Treasury but is now
                       part of the Department of Homeland Security.

                       While the Under Secretary for TFI has direct authority over FinCEN,
                       the lines of authority for purposes of BSA over the other Treasury
                       bureaus and all non-Treasury organizations are indirect. For
                       example, Treasury’s Office of the Comptroller of the Currency
                       (OCC) and Office of Thrift Supervision (OTS), which examine and
                       enforce BSA compliance by national banks and thrifts, respectively,
                       do not report directly to TFI. IRS, which examines BSA compliance
                       by casinos, money services businesses (MSB),4 and as of 2006,
                       insurance companies and dealers in precious metals, precious
                       stones, or jewels, also does not report directly to TFI.

                       Other federal regulators such as the Federal Deposit Insurance
                       Corporation (FDIC), the Board of Governors of the Federal Reserve
                       System (Federal Reserve), and the National Credit Union
                       Administration (NCUA), oversee financial institution compliance
                       with BSA but are independent of Treasury’s authority. Federal
                       LEAs such as the Federal Bureau of Investigation (FBI) and
                       Immigration and Customs Enforcement who investigate money
                       laundering using BSA data and determine their own investigative
                       priorities, are also independent of Treasury.5

                       The organizations with BSA responsibility described in the
                       paragraphs above are presented in the body of the report in table
                       1, table 2, and figure 2.

4
  MSBs include six types of financial organizations: currency dealers or exchangers, check cashers,
issuers of traveler’s checks or money orders, sellers or redeemers of traveler’s checks or money orders,
money transmitters, and issuers or redeemers of stored value.
5
  We included law enforcement agencies in the discussion because they utilize BSA information in their
investigative efforts and can provide useful feedback to Treasury.

                       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                   Page 3
                       Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
Without direct authority, Treasury (through FinCEN) provides
overall support and coordinates efforts to ensure BSA compliance
through regulations, guidance, and memoranda of understanding
(MOU) with federal and state regulators. MOUs are used to lay out
requirements and protocols for information sharing and
coordination of enforcement efforts. We identified 80 Treasury
(FinCEN and IRS) compliance information sharing MOUs established
as of October 1, 2007, to improve communication and coordination
between Treasury and other entities with various levels of BSA
responsibility and authority. Because most of these MOUs are
relatively recent and voluntary, it is difficult to say yet whether
they are working, though Treasury officials indicated to us that the
MOUs are working well. Regarding communication, we found that
communication between FinCEN and LEAs needs improvement,
particularly as related to FinCEN’s analysis of BSA data.

BSA-related costs and performance data of regulators and SROs
involved in ensuring BSA compliance are not generally available.
Without accurately knowing the resources being expended on BSA
activities or the results directly achieved, the Under Secretary for
TFI, FinCEN, and other stakeholders (e.g., Congress, the Office of
Management and Budget, and agency management) may be
hampered in their efforts to link resources expended on BSA
enforcement to results achieved or to identify anomalies in levels of
effort devoted to BSA enforcement and compliance activities
among agencies.

Challenged by these limitations, Treasury must manage the
program within the range of its authority. To ensure effective
management of BSA-related activities and provide a clearer picture
of the results of these efforts, we are recommending that FinCEN
(1) establish a plan for periodically assessing whether its
compliance and information sharing MOUs with regulators are
working as intended, (2) determine a means for ensuring that
FinCEN and LEAs sufficiently communicate about the extent to
which FinCEN should use its analytic capabilities to support the
agencies in their investigations, and (3) work with Treasury and
non-Treasury organizations to develop BSA –related performance
measures or indicators to track results achieved.


TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 4
Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                     FinCEN concurred with our recommendations. FinCEN said that the
                     MOUs require annual meetings to evaluate the effectiveness of
                     information sharing. In addition, FinCEN holds periodic liaison
                     meetings and, in February 2008, commissioned a customer
                     satisfaction survey of partner regulators with which it has
                     concluded MOUs. FinCEN also is engaged in a number of activities
                     to enhance communication with law enforcement agencies and to
                     determine ways that the bureau’s analytical efforts can
                     complement law enforcement investigative efforts. In December
                     2008, FinCEN plans to survey law enforcement customers on
                     potential strategic initiatives and methods to ensure FinCEN’s
                     analytical products and services meet their investigative needs. In
                     addition, subsequent to our fieldwork, FinCEN established a BSA-
                     related performance measure to track results achieved from
                     Treasury and non-Treasury regulatory organizations, reflecting the
                     percentage of bank examinations indicating a systemic failure of
                     the anti-money laundering program. FinCEN further plans to
                     evaluate the customer survey results and set future targets.


Overview of BSA and Related Laws
                     Money laundering activities are designed to conceal or disguise the
                     nature, location, source, ownership, or control of money (currency
                     or currency equivalents such as checks and electronic transfers) to
                     avoid a transaction reporting requirement under state or federal law
                     or to disguise the fact that the money was acquired by illegal
                     means. Terrorist financing provides a person or group the
                     opportunity to collect funds with the intention of intimidating a
                     population or compelling a government or international organization
                     to abstain from carrying out an act through the threat of violence.
                     The funding may be derived from criminal activities or legitimate
                     sources. Regardless, the techniques to fund terrorism can be
                     similar to those used to launder money.

                     Congress enacted BSA in 1970.6 BSA requires that financial
                     institutions maintain records and reports which help identify the
                     source, volume, and movement of currency and other monetary

6
 Pub. .L. No. 91-508 (codified, as amended, at 12 U.S.C. § 1829b; 12 U.S.C. §§ 1951-1959; 31
U.S.C. § 5311 et seq.).

                     TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for              Page 5
                     Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                        instruments transmitted into or out of the United States.7 This
                        information is passed on to federal officials so that law
                        enforcement can apprehend criminals by following money trails.
                        BSA contains both civil and criminal penalties for violations of its
                        reporting requirements. Regulations promulgated under the act
                        require domestic financial institutions to file reports for cash
                        transactions exceeding $10,0008 and to file a suspicious activity
                        report (SAR) for a transaction exceeding $5,0009 that the
                        institution knows, suspects, or has reason to suspect is intended to
                        evade any federal law or regulation, involves illegally obtained
                        funds, or has no business or apparent lawful purpose.10 Since
                        1970, Congress has enacted laws amending BSA that, among
                        other things, have added criminal and civil sanctions for money
                        launderers and made terrorist financing an activity punishable under
                        federal money laundering laws.

                        The USA PATRIOT Act established FinCEN as a bureau to
                        administer the requirements of BSA. In September 2002, by virtue
                        of the USA PATRIOT Act, the Secretary formalized the
                        establishment of FinCEN as a Treasury bureau and delegated the
                        authority to FinCEN to administer the requirements of BSA. 11 In
                        April 2004, the Secretary formalized the statutory establishment of
                        the Office of Terrorism and Financial Intelligence and clarified that
                        FinCEN reports to the Under Secretary for Enforcement as head of
                        TFI.12 In December 2004, Congress passed the Consolidated
                        Appropriations Act, 2005, which established the position of Under
                        Secretary for TFI in law.13 The law stipulates that FinCEN reports
                        to the Under Secretary of TFI and that the Under Secretary may
                        not redelegate its reporting authority over FinCEN.

7
   31 U.S.C. § 5312(a)(2) defines the term “financial institution” to include banks, credit unions, thrifts,
broker-dealers, insurance companies, money services businesses, pawnbrokers, casinos, auto dealers,
travel agencies, etc.
8
   31 C.F.R. 103.22(b)(1).
9
  The threshold is generally $5,000, but for MSBs it is $2,000 at the point of sale.
10
    31 C.F.R. 103.18 (depository institutions), 31 C.F.R. 103.15 (mutual funds), 31 C.F.R. 106.16
(insurance companies), 31 C.F.R. 103.17 (futures commission merchants and introducing brokers in
commodities), 31 C.F.R. 103.19 (brokers or dealers in securities), 31 C.F.R. 103.20 (MSBs), and 31
C.F.R. 103.21 (casinos).
11
     Treasury Order 180-01
12
   Treasury Order 105-17
13
    Pub. L. No. 108-447 Division H, Title II, Sec. 222. Under this act, the position was titled Under
Secretary for Terrorism and Financial Crimes.

                        TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                      Page 6
                        Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                       FinCEN’s role includes supporting law enforcement, fostering
                       interagency and global cooperation against domestic and
                       international financial crimes, and providing U.S. policy makers
                       with strategic analyses of domestic and worldwide trends and
                       patterns. FinCEN is to work toward those ends through information
                       collection, analysis, and sharing, as well as technological
                       assistance and innovative, cost-effective implementation of BSA
                       and other Treasury authorities assigned to FinCEN. Among other
                       things, the Secretary delegated to the Director of FinCEN the
                       authority to take all necessary and appropriate actions to
                       implement and administer Titles I and II of BSA, as amended,
                       including the promulgation and amendment of regulations and the
                       assessment of penalties.

                       Except when dealing with insured depository institutions, the
                       Secretary has the sole authority to issue regulations delineating the
                       types of transactions financial institutions are required to report to
                       the Department and the types of records they are required to
                       maintain for the purposes of BSA. Certain related recordkeeping
                       and other rules for insured depository institutions are jointly
                       prescribed by the Secretary and one or more of the federal banking
                       agencies, depending on the nature of the requirement. Related
                       regulations for insured depository institutions are jointly prescribed
                       by the Secretary and the Federal Reserve. The Secretary also has a
                       variety of civil, criminal, and special measures14 at his disposal, and
                       can petition the federal courts to enforce any such sanctions. In
                       turn, the Secretary has delegated his authority and responsibility in
                       this area to the Under Secretary for TFI, who provides the policy,
                       strategic, and operational direction to Treasury on issues related to
                       enforcing BSA, combating terrorist financing, combating financial
                       crimes, intelligence analysis, and other related enforcement
                       activities. Though FinCEN reports to the Under Secretary for TFI,
                       FinCEN retains the authority to administer BSA.




14
  The term “special measures” refers to recordkeeping for and reporting of certain financial transactions;
information relating to beneficial ownership; information relating to certain payable-through accounts;
information relating to certain correspondent accounts; and prohibitions or conditions on opening or
maintaining certain correspondent or payable-through accounts. 31 U.S.C. § 5318A(b).

                       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                    Page 7
                       Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                     In response to the September 11 terrorist attacks, Congress
                     enacted the USA PATRIOT Act on October 21, 2001.15 Title III of
                     the act, known as the International Money Laundering Abatement
                     and Financial Anti-Terrorism Act of 2001,16 requires that financial
                     institutions establish an anti-money laundering program. The
                     program must include policies, procedures, and internal controls;
                     designation of a compliance officer; employee training; and an
                     independent audit function.17

                     Title III also amended the BSA to allow the Secretary to require
                     domestic financial institutions and agencies to take special
                     measures, as mentioned above, if reasonable grounds exist that a
                     jurisdiction, financial institution, types of accounts, or classes of
                     international transactions are of primary money laundering concern.
                     Specific special measures would be taken only after consultation
                     with the Chairman of the Federal Reserve, any other appropriate
                     federal banking agency, the Secretary of State, Securities and
                     Exchange Commission (SEC), Commodity Futures Trading
                     Commission (CFTC), National Credit Union Administration (NCUA),
                     and in the sole discretion of the Secretary, other agencies and
                     interested parties found to be appropriate.18

                     Key federal anti-money laundering laws are listed below and
                     described in appendix 2.

                     •   Bank Secrecy Act of 1970
                     •   Money Laundering Control Act of 1986
                     •   Annunzio-Wylie Anti-Money Laundering Act of 1992
                     •   Money Laundering Suppression Act of 1994
                     •   Money Laundering and Financial Crimes Strategy Act of 1998
                     •   Title III of the USA PATRIOT Act of 2001
                     •   Intelligence Reform and Terrorism Prevention Act of 2004
                     •   USA PATRIOT Improvement and Reauthorization Act of 2005



15
   Pub. L. No. 107-56. The acronym USA PATRIOT stands for “Uniting and Strengthening America by
Providing Appropriate Tools Required to Intercept and Obstruct Terrorism.”
16
   Pub. L. No. 108-458, § 6202, named title III the International Money Laundering Abatement and
Financial Antiterrorism Act of 2001.
17
   31 U.S.C. § 5318(h).
18
   31 U.S.C. § 5318A(a).

                     TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for               Page 8
                     Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
Treasury Has Lead Responsibility for BSA But Responsibility for
Compliance and Enforcement Is Shared Among Many Agencies
                      Treasury is the lead agency responsible for the federal
                      government’s effort to prevent money laundering and combat
                      terrorist financing in the United States. In managing this effort, the
                      Secretary has a number of specific authorities and responsibilities
                      under BSA, which he has delegated to the Director of FinCEN, who
                      is under the direct supervision of the Under Secretary for TFI. The
                      Secretary has assigned to TFI the functions of providing policy,
                      strategic, and operations direction to the Department on issues
                      relating to BSA implementation. However, FinCEN’s and TFI’s
                      direct line authority over all entities involved in BSA compliance
                      and enforcement is limited. Our review identified 12 organizations,
                      including FinCEN, with substantial BSA compliance and
                      enforcement responsibilities.

                      Treasury Authority Under BSA

                      Under BSA, the Secretary may issue regulations delineating the
                      types of transactions financial institutions are required to report to
                      the Department and the types of records they must maintain. This
                      authority has been delegated to the Director of FinCEN.19 The
                      Under Secretary and Director of FinCEN, however, lack direct
                      authority over all other entities with BSA responsibility, including
                      those organizations within Treasury. For example, Treasury’s OCC
                      and OTS, which regulate national banks and thrifts, respectively,
                      are separate from TFI. Although OCC and OTS are under the
                      general supervision of the Secretary, the statutes20 stipulate that
                      the Secretary may not delay or prevent the issuance of any rule or
                      promulgation of any regulation by OCC or OTS, or intervene in any
                      particular matter. In addition, IRS, which examines casinos, MSBs,
                      and since January 2006, dealers in precious metals, precious
                      stones, or jewels, and since May 2006, insurance companies, is
                      also independent of TFI authority. Similarly independent are the
                      numerous LEAs which utilize BSA information in their

19
   Under Treasury Order 180-01, all regulations issued or amended by the Director of FinCEN are subject
to approval by the Under Secretary of TFI.
20
   12 U.S.C. § 1 (OCC) AND 12 U.S.C. § 1462a (OTS).

                      TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                  Page 9
                      Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                       investigations, such as the FBI which uses BSA data in its
                       investigations; non-Treasury federal regulators, such as the FDIC,
                       which enforces compliance; and nongovernmental SROs, such as
                       the New York Mercantile Exchange which enforces compliance.

                       Organizations With BSA Responsibility

                       Of the 12 organizations that we identified that have regulatory or
                       enforcement responsibility under BSA,21 only FinCEN reports
                       directly to the Under Secretary for TFI. The remaining 11
                       organizations with BSA-related responsibility fall under the Under
                       Secretary for TFI’s indirect influence. These organizations include 3
                       within Treasury but outside of TFI and 9 external to Treasury. The
                       Under Secretary also has direct authority over four other Treasury
                       organizations, but their roles involve anti-money laundering and
                       counterterrorist functions and do not directly involve BSA matters.

                       Organizations That Report to the Under Secretary for TFI

                       TFI directs Treasury’s efforts to safeguard the U.S. financial
                       system against illicit use, rogue nations, money launderers, terrorist
                       facilitators, proliferators of weapons of mass destruction, drug
                       kingpins, counterfeiters, and other threats. TFI directs the work of
                       FinCEN. FinCEN supports law enforcement, intelligence, and
                       regulatory agencies in sharing and analyzing financial intelligence,
                       and builds global cooperation with financial intelligence units of
                       other countries.

                       Four other TFI organizations have substantial anti-money laundering
                       roles but are not directly involved in BSA compliance and
                       enforcement. The Office of Terrorist Financing and Financial Crimes
                       is TFI’s policy development and outreach office for issues relating
                       to international anti-money laundering and counterterrorist
                       financing. It collaborates with other elements of TFI when setting
                       policy. The Office of Intelligence and Analysis is responsible for the
                       receipt, analysis, collation, and dissemination of intelligence and
                       counterintelligence information related to the operations and
                       responsibilities of the entire Department. It is staffed by analysts

21
  We did not include the many other organizations that are layered beneath these organizations in this
total, nor did we include the states.

                       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                 Page 10
                       Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
focused on the financial networks of terrorists and others who
threaten national security. The Office of Foreign Assets Control is
charged with administering and enforcing U.S. economic and trade
sanctions based on foreign policy and national security goals. The
Treasury Executive Office for Asset Forfeiture administers the
Treasury Forfeiture Fund, which is derived from nontax forfeited
assets deposited by five federal law enforcement entities. One of
these entities, IRS Criminal Investigation, is within Treasury. The
remaining four are components of the Department of Homeland
Security (DHS): Immigration and Customs Enforcement, Customs
and Border Protection, Secret Service, and Coast Guard.

Figure 1 on the next page depicts the organizational structure of
TFI.




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 11
Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
   Figure 1: TFI Organization Chart

                                    Under Secretary
                                 Office of Terrorism and
                                  Financial Intelligence
                                          (TFI)


             Director            Assistant Secretary for      Assistant Secretary
        Office of Foreign          Terrorist Financing      Office of Intelligence and
      Assets Control (OFAC)                                      Analysis (OIA)




              Director              Deputy Assistant               Deputy Assistant
         Financial Crimes               Secretary                      Secretary
       Enforcement Network          Office of Terrorist        Office of Intelligence and
             (FinCEN)            Financing and Financial            Analysis (OIA)
                                     Crimes (TFFC)


             Director                                               Deputy Assistant
        Treasury Executive                                               Secretary
              Office                                                Office of Securityb
        For Asset Forfeiture    Internal Revenue Service
                                  Criminal Investigation
                                           (CI)a




   Source: TFI Web site.
   a
     The dotted line from TFI to IRS Criminal Investigation signifies the
     organization’s close working relationship in developing anti-money
     laundering, terrorist financing, and financial crimes cases.
   b
     The Office of Security is responsible for the Department’s personnel,
     physical, and information security programs.

Organizations That Do Not Report Directly to the Under Secretary
for TFI

       Federal Regulators

One of the primary functions of federal regulators is to examine
financial institutions under their purview to ensure compliance with
all laws and regulations. Federal regulators have their own separate
authorities to ensure that regulated entities comply with all laws




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                        Page 12
Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                       and regulations, including BSA.22 In addition, the Secretary
                       delegated the authority to the federal regulators to examine
                       institutions to determine compliance with BSA requirements. It is
                       this combined authority that federal regulators use to examine
                       institutions to determine compliance with the BSA regulations.
                       However, FinCEN has the authority to issue, amend or modify BSA
                       regulations, which allows FinCEN to exert indirect authority over
                       the examinations conducted by 8 federal regulators.23

                       Three of these regulators are within Treasury — OCC, which
                       oversees national banks; OTS, which oversees thrifts; and IRS,
                       which, through its Small Business/Self-Employed Division, oversees
                       casinos, MSBs, insurance companies, and dealers in precious
                       metals, precious stones, or jewels. It should also be noted that
                       IRS’s Tax Exempt and Government Entities Division assists the
                       Small Business/Self Employed Division by providing BSA outreach
                       to and oversight of charitable organizations and tribal governments.

                       In addition, IRS manages the BSA database for FinCEN. In this
                       regard, IRS collects transaction data, converts paper and magnetic-
                       tape submissions into electronic media, and stores all of the BSA
                       data in its systems located at the IRS Enterprise Computing Center
                       -- Detroit. While IRS is a bureau within Treasury and the Secretary
                       has significant direct authority over the bureau, IRS does not report
                       to the Under Secretary for TFI. IRS does, however, work
                       collaboratively with FinCEN under a service agreement signed with
                       IRS in 1995 to collect, store, and provide authorized user access to
                       SAR data. IRS’s role in obtaining and maintaining other BSA data is
                       longstanding.

                       The other five regulators are outside of Treasury —Federal Reserve,
                       Federal Deposit Insurance Corporation (FDIC), NCUA, SEC, and
                       CFTC. 24


22
   For example, the federal banking agencies have authority pursuant to 12 USC §§ 1786 (for credit
unions) and 1818 (for depository institutions) to ensure that banking organizations comply with all laws
and regulations.
23
   31 CFR §103.56(b).
24
   The Deputy Secretary of the Treasury discussed the indirect relationship between Treasury and
external regulators, which examine their respective institutions for BSA compliance, in testimony before
the House Financial Services Subcommittee on Oversight and Investigations, June 16, 2004.

                       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                  Page 13
                       Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                              Self-Regulatory Organizations

                      Self-regulatory organizations (SRO) are nongovernmental
                      organizations that have statutory responsibility to regulate their
                      own members, such as securities broker-dealers, and fall under the
                      regulatory authority of federal agencies such as SEC and CFTC.
                      SROs obtain their authority to regulate and examine their members
                      under the laws that authorized them. SROs fall under the regulatory
                      authority of federal agencies.25

                      Three major SROs, one regulated by SEC and two regulated by
                      CFTC, play an important role in ensuring compliance with BSA. The
                      SEC regulates the Financial Industry Regulatory Authority
                      (FINRA).26 The consolidation is intended to streamline the broker-
                      dealer regulatory system and permit a single set of governing rules
                      over members.

                      CFTC regulates the New York Mercantile Exchange, which in turn
                      is responsible for regulating its member brokers. The New York
                      Mercantile Exchange is the world's largest physical commodity
                      futures exchange and trading forum for energy and precious
                      metals. The National Futures Association, also regulated by CFTC,
                      is the SRO for the U.S. futures industry. It regulates every firm or
                      individual who conducts futures trading business with public
                      customers. SEC and CFTC also regulate other SROs, such as the
                      American Stock Exchange in the case of SEC, and the Chicago
                      Mercantile Exchange in the case of CFTC, which in turn regulate
                      their members.

                              Law Enforcement Agencies

                      Nine federal LEAs—one within Treasury, five within the
                      Department of Justice (DOJ), and three within DHS—use BSA data


25
   31 C.F.R. §103.120(c) states that a registered securities broker-dealer or a futures commission
merchant will be deemed in compliance with the requirements of 31 U.S.C. § 5318(h)(1) if it complies
with the rules, regulations, or requirements of its SRO concerning the establishment and maintenance of
anti-money laundering programs, and the other requirements of section 120(c).
26
   On July 26, 2007, the SEC gave regulatory approval to the consolidation of the member firm
regulatory functions of the National Association of Securities Dealers (NASD) and NYSE Regulation, Inc.
into a single, consolidated self regulatory organization.

                      TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                 Page 14
                      Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                        for investigative purposes during ongoing investigations and for
                        detection of possible new criminal activity.

                        The Treasury law enforcement agency that addresses BSA-related
                        crimes is IRS Criminal Investigation, which investigates potential
                        criminal violations of the Internal Revenue Code and related
                        financial crimes. Over the years, IRS Criminal Investigation’s
                        statutory jurisdiction has expanded to include money laundering
                        and currency violations. It has also been delegated specific
                        authority for investigating criminal violations of the BSA
                        regulations, except for violations with respect to the reports of
                        exports and imports of monetary instruments in excess of
                        $10,000.27

                        The following five LEAs are within DOJ:

                        •    The FBI addresses money laundering and terrorist financing
                             crimes in two of its units: (1) the Asset Forfeiture/Money
                             Laundering Unit of the Financial Crimes Section within the
                             Criminal Investigative Division and (2) the Terrorist Financing
                             Operating Section within the Counterterrorism Division. The
                             Asset Forfeiture/Money Laundering Unit promotes strategic use
                             of asset forfeiture and works to ensure that field offices employ
                             the money laundering violation in all investigations, where
                             appropriate, to disrupt or dismantle criminal enterprises. The
                             Terrorist Financing Operating Section works to identify,
                             investigate, prosecute, disrupt, and dismantle all terrorist-related
                             financial and fundraising activities.

                        •    The Drug Enforcement Administration uses BSA data to
                             investigate monetary transactions resulting from unlawful drug
                             activities under the primary U.S. money laundering statutes and
                             applicable civil and criminal forfeiture statutes.

                        •    DOJ’s Criminal Division has two components involved with the
                             use of BSA data to combat money laundering and terrorist
                             financing. The Asset Forfeiture and Money Laundering Section
                             provides centralized management for the Department’s asset
                             forfeiture program and managerial direction in the Department’s

27
     31 CFR §103.56(c)(2).

                        TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 15
                        Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                             money-laundering prosecutions. The section also initiates,
                             coordinates, and reviews legislative and policy proposals
                             affecting the DOJ’s asset forfeiture program and money
                             laundering enforcement programs. The Counterterrorism Section
                             is responsible for legislative initiatives, policies, and strategies
                             relating to combating international and domestic terrorism.

                         •   The Executive Office of U.S. Attorneys is a liaison between
                             DOJ and the 93 U.S. Attorneys. The U.S. Attorneys serve as
                             the nation’s principal litigators, under the direction of the
                             Attorney General, and prosecute suspected perpetrators of
                             federal crimes, including violations of BSA.

                         The following three LEAs are within DHS:

                         •   The Secret Service investigates counterfeiting of U.S. currency,
                             financial fraud, and money laundering.

                         •   Immigration and Customs Enforcement, through its Financial
                             Investigations Branch, targets individuals who violate
                             immigration laws, particularly as related to possible terrorist
                             financing, and tracks the financial transactions of these illicit
                             activities to identify co-conspirators and seize their illicit profits.
                             Immigration and Customs Enforcement also enforces bulk cash
                             smuggling statutes.

                         •   The legacy U.S. Customs Service had delegated authority from
                             the Secretary of the Treasury to enforce regulations pertaining
                             to the reporting of cash and monetary instruments imported into
                             or exported from the United States. 28 Upon creation of the
                             Department of Homeland Security in 2003, the former U.S.
                             Customs Service was transferred from Treasury to Homeland
                             Security where certain U.S. Customs functions were assigned
                             to Customs and Border Protection and the law enforcement
                             function was transferred to Immigration and Customs
                             Enforcement. These organizations share responsibility for
                             enforcing the regulations pertaining to the reporting of cash and
                             monetary instruments imported into or exported from the U.S.


28
     31 CFR 103.56 (b)(7) and (c)(1)

                         TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 16
                         Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
   Customs and Border Protection also helps Immigration and
   Customs Enforcement enforce bulk cash smuggling statutes.

Bank Secrecy Act Advisory Group Provides Advice to Treasury

The Bank Secrecy Act Advisory Group is a group of representatives
from the financial services industry, law enforcement, and
regulatory partners who come together with senior level Treasury
officials periodically to discuss anti-money laundering related
compliance and public policy matters, including possible new
regulatory requirements. Treasury established this group in 1994 to
help strengthen anti-money laundering controls.

Table 1 and 2 and figure 2 depict the organizations described in
this section, with figure 2 providing additional details on the
interagency relationships for agencies and organizations that have
BSA responsibilities and/or are users of BSA information.




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 17
Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
     Table 1. Twelve Major Organizations With Substantial BSA-Related
              Responsibility
Organization                                        Responsibilities
Treasury Bureaus (4)
    Financial Crimes Enforcement Network            BSA-administration and enforcement
    Internal Revenue Service:
                                                    Examiner for casinos, MSBs, insurance companies, and
         Small Business/Self-Employed Division
                                                    others; oversees the processing of paper-filed BSA forms
          Enterprise Computing Center Detroit       Operates the BSA data center
     Office of the Comptroller of the Currency      Regulator for national banks
     Office of Thrift Supervision                   Regulator for thrift institutions
External Financial Regulators (5)
     Federal Deposit Insurance Corporation          Regulator   for state-chartered banks
     Federal Reserve Board                          Regulator   for holding companies and certain state-chartered
                                                    banks
    National Credit Union Administration            Regulator   for credit unions
    Commodity Futures Trading Commission            Regulator   for commodity, financial futures, and options
                                                    market
     Securities and Exchange Commission             Regulator   for securities market
External Self-Regulatory Organizations (3)
     National Futures Association                   Futures self-regulator for U.S. futures industry
     New York Mercantile Exchange                   Commodity futures exchange regulator for energy and
                                                    precious metals brokers
    Financial Industry Regulatory Authority         Securities self-regulator

    Source: OIG Analysis.



     Table 2. Nine Major LEAs Which Use BSA Data in Investigations and
               Prosecutions
Organization                                        Responsibilities
Treasury Law Enforcement (1)
     Internal Revenue Service - Criminal
                                                    Tax and money laundering investigations
     Investigation
External Law Enforcement (8)
     Criminal Division (DOJ)                        Asset forfeiture and counter terrorism
     Drug Enforcement Administration (DOJ)          Drug enforcement
     Executive Office for United States Attorneys
                                                    Federal prosecution
     (DOJ)
     U.S. Attorneys Office (DOJ)                    Federal prosecution
     Federal Bureau of Investigation (DOJ)          Federal crimes and counter terrorism
     Immigration and Customs Enforcement (DHS)      Immigration and customs enforcement
     U.S. Secret Service (DHS)                      Financial crimes and counterfeiting
     Customs and Border Protection (DHS)            Customs border protection

    Source: OIG Analysis.




     TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                                     Page 18
     Bank Secrecy Act Is Spread Across Many Organizations (OIG-08-030)
                                                                .




                                      …



TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 19
Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
FinCEN and IRS Have Made Efforts to Improve BSA-Related
Coordination and Communication
             FinCEN and IRS have made efforts to improve coordination and
             communication to ensure consistency in their BSA-related
             activities. FinCEN and IRS established a joint agreement to formally
             clarify SAR data management responsibilities that IRS performs for
             FinCEN. Several MOUs exist for BSA information sharing – one
             between FinCEN and IRS, several between FinCEN and federal and
             state regulators for compliance information, and several between
             IRS and state financial institution regulators. In an effort to ensure
             consistent application of BSA to all banking organizations, FinCEN
             also participated in a collaborative effort with the federal banking
             agencies that resulted in development and release of a uniform
             manual for BSA compliance examinations. Further, to better meet
             the needs of LEAs and help focus its efforts, FinCEN would like to
             receive more feedback from LEAs on how BSA data assisted
             investigations.

             Treasury Uses MOUs to Improve Coordination and Communication

             To improve coordination and communication of BSA-related
             examination and enforcement activities, FinCEN and IRS use MOUs
             extensively. We identified a total of 80 MOUs. These include an
             MOU FinCEN and IRS have with each other, MOUs between
             FinCEN and the federal and state financial institution regulators,
             and those between IRS and the state financial institution
             regulators. Among other more recent MOUs are those that FinCEN
             signed in September 2004 with OCC and OTS and three federal
             banking agencies outside of Treasury – Federal Reserve, FDIC, and
             NCUA – that cover BSA compliance-related information sharing
             between the regulators and FinCEN.




             TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 20
             Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                      FinCEN officials told us that its MOUs are working well and that its
                      communication with the non-Treasury regulators has improved.29 It
                      should be noted, however, that MOUs are generally voluntary and
                      unenforceable, without provisions for coping with
                      noncompliance.30 31

                      We identified 46 compliance information sharing MOUs that
                      FinCEN has with federal and state regulators. FinCEN has 1 MOU
                      with IRS to help identify MSBs and other financial institutions not
                      in compliance with BSA, 1 MOU with the 5 federal banking
                      regulators to routinely exchange compliance and enforcement
                      information related to financial institutions, 1 MOU with the SEC to
                      routinely exchange examination and enforcement information
                      relating to the SEC-regulated firms’ compliance with BSA, and 43
                      MOUs that FinCEN signed with state financial regulators and Puerto
                      Rico. As of October 1, 2007, FinCEN was pursuing MOUs with 9
                      states and the District of Columbia, and 2 additional MOUs with
                      already participating states. FinCEN officials told us that 2 states
                      have declined to participate in the voluntary information sharing
                      program.32 In December 2006, FinCEN and the SEC entered into an
                      MOU whereby they agreed to the routine exchange of examination
                      and enforcement information relating to SEC-regulated firms’
                      compliance with BSA.

                      In addition, in April 2006, IRS announced that it signed 34
                      agreements – 33 with states and 1 with Puerto Rico – to begin
                      sharing BSA-related information. The agreements allow IRS and the
                      participating states to share information and leverage their

29
   During work on an audit involving the review of a significant enforcement action against Wells Fargo
Bank, we found that OCC did not keep FinCEN as informed about the action as FinCEN believed the
MOU required. Following completion of the action, FinCEN officials made OCC aware of their position,
and OCC revised its internal guidance to prevent a recurrence. Bank Secrecy Act: OCC Did Not Take
Formal Enforcement Action Against Wells Fargo Bank for Significant BSA Deficiencies, OIG-06-034
(Aug. 18, 2006) http://www.ustreas.gov/inspector-general/audit-reports/2006/oig06034.pdf
30
   Under 31 C.F.R. §103.56(e), there is an obligation by federal regulators delegated BSA examination
authority to provide reports to FinCEN in the form and at such intervals as directed by FinCEN.
31
   As it is still relatively early in the life of the MOUs, our office has not assessed their overall
effectiveness. The Office of Inspector General Fiscal Year 2008 Annual Plan includes an audit project
related to the effectiveness of the MOUs with the federal banking regulators.
32
   New Mexico and South Carolina are the two states which declined to participate in an MOU with
FinCEN. New Mexico did not wish to participate in voluntary information sharing, and South Carolina did
not perform BSA exams.

                      TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                 Page 21
                      Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
resources to ensure that MSBs and other non-bank financial
institutions comply with federal and state anti-money laundering
laws and regulations, and MSBs comply with their responsibility to
register with the federal government and report cash transactions
and suspicious activities.

We also identified several other MOUs that did not involve FinCEN
or IRS as participants. In 1990, the Secretary, Attorney General,
and Postmaster General signed an MOU to aid in conducting money
laundering investigations. DHS and DOJ also signed an MOU in
May 2003 to coordinate the jurisdiction over BSA-related cases.
Under the MOU, Immigration and Customs Enforcement and the
FBI both work terrorist financing cases, with FBI having the primary
responsibility. The securities industry uses an MOU among the
SROs to coordinate examination effort. According to this MOU,
when SRO rules governing an area of review are substantially the
same, the SROs can decide among themselves which SRO will
conduct the examination in a given year. Prior to the consolidation
of the regulatory functions of the New York Stock Exchange
(NYSE) and the National Association of Securities Dealers (NASD),
they shared several areas of review in this manner. For example,
anti-money laundering reviews were shared between NYSE and
NASD because their rules regarding BSA compliance were
substantially the same.

In the table below is a summary of the MOUs signed by FinCEN
and IRS.




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 22
Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
             Table 3: Number of MOUs FinCEN and IRS Signed for BSA-Related
                      Activities and Parties to the Agreements as of
                      October1, 2007

Signers                                       Subject                            No. of MOUs
                                              BSA compliance information
FinCEN and IRS                                sharing relating to MSBs and                      1
                                              non-bank financial institutions

                                              BSA compliance information
FinCEN, OCC, OTS, Federal Reserve, FDIC,
                                              sharing relating to financial                     1
and NCUA
                                              institutions

                                              BSA compliance information
FinCEN, 40 states, and Puerto Ricoa           sharing relating to financial                43
                                              institutions

                                              BSA compliance information
FinCEN and SEC                                sharing relating to securities                    1
                                              firms

                                              BSA information sharing
IRS, 33 states, and Puerto Rico               relating to MSBs and other                   34
                                              non-bank financial institutions
Total MOUs                                                                                 80

             Source: OIG

             a
                 Kansas and Missouri each have two BSA information-sharing MOUs with
                 FinCEN—one for information sharing with the state bank regulatory agencies
                 for banks and one for information sharing with the state credit union
                 regulatory agencies for credit unions. Therefore, although 40 states and one
                 territory have BSA information-sharing MOUs with FinCEN, there are a total
                 43 MOUs in this category.

           Not counted in the above total of 80 MOUs is a service agreement
           FinCEN signed with IRS in 1995 to collect, store, and provide
           authorized user access to SAR data. IRS’s responsibility to similarly
           collect, store, and provide authorized access to all other BSA data
           predates FinCEN’s existence and current responsibility and was not
           established in a signed agreement.




           TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                   Page 23
           Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                        Federal Financial Institutions Examination Council Issued BSA
                        Examination Manual in Collaboration with FinCEN

                        In an effort to ensure consistent application of BSA to all banking
                        organizations, including commercial banks, savings associations,
                        and credit unions, the Federal Financial Institutions Examination
                        Council 33 released the Bank Secrecy Act/Anti-Money Laundering
                        Examination Manual in June 2005. The Federal Reserve, FDIC,
                        OCC, OTS, and NCUA developed the manual in collaboration with
                        FinCEN. State banking agencies played a consultative role through
                        the Conference of State Bank Supervisors. OFAC collaborated on
                        the development of core overview and examination procedures
                        addressing compliance with OFAC-enforced regulations. Because of
                        feedback from examination staff and financial institutions, the
                        Council has made two revisions to the manual to further clarify
                        supervisory expectations. The first revision was in July 2006 and
                        the most recent revision was in August 2007.34

                        The publicly available manual35 guides examiners through an
                        evaluation of a banking organization's BSA compliance program
                        regardless of the organization’s size or business lines. The manual
                        provides the examiner with extensive narrative guidance and
                        resource material as well as suggested examination procedures.
                        The manual emphasizes a banking organization’s responsibility to
                        establish and implement risk-based policies, procedures, and
                        processes to comply with BSA and safeguard its operations from
                        money laundering and terrorist financing.

                        SEC’s SROs have also taken steps to ensure consistency in their
                        BSA examination procedures. Prior to the creation of FINRA NASD
                        representatives informed us that NASD had formed a task force
                        with NYSE and SEC to develop guidance for examining compliance
                        with BSA. According to NASD, the guidance was expected to be
                        used by all NASD and NYSE examiners. We were also told that the
                        guidance would not be made public, but NASD, NYSE, and SEC

33
   The FFIEC, established under title X of the Financial Institutions Regulatory and Interest Rate Control
Act of 1978, is a formal interagency body empowered to prescribe uniform principles, standards, and
report forms for the examination of financial institutions by the federal bank regulators.
34
   http://www.ffiec.gov/press/pr072806.htm and http://www.ffiec.gov/press/pr082407.htm
35
  http://www.ffiec.gov/bsa%5Faml%5Finfobase/pages_manual/manual_online.htm

                        TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                    Page 24
                        Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                     planed to have ad hoc meetings to ensure consistency in their
                     examinations and regulations.

                     FinCEN Wants More Information From LEAs About Investigative
                     Results

                     FinCEN officials told us that they receive little information from
                     LEAs on the results of investigations based on BSA data or
                     feedback on analyses that FinCEN provides to the agencies in
                     response to their queries. According to FinCEN officials, feedback
                     from the LEAs would be helpful to FinCEN in its efforts to manage
                     BSA data systems to ensure the needs of the agencies are met. We
                     were told that LEAs will sometimes inform FinCEN about the
                     results of their investigations, but this often does not happen until
                     years after FinCEN provided the BSA data or analyses to the LEA.
                     One FinCEN official did say, however, that FinCEN could improve
                     its outreach to the LEAs so LEAs would keep FinCEN better
                     informed of case results.

                     Feedback would benefit FinCEN since it has been moving to
                     increase its analytical capability and provide LEAs with
                     investigative leads in accordance with the USA PATRIOT Act. In
                     this regard, Section 361 of the act calls for FinCEN to analyze and
                     disseminate data of possible criminal activity to LEAs and to
                     support their ongoing investigations. In May 2006, we reported on
                     FinCEN’s efforts under this act to increase its complex analysis of
                     BSA data and provide law enforcement with new leads or clues
                     regarding possible terrorist financing or money laundering. We
                     found that FinCEN had made limited progress in this area.36 We
                     also discussed BSA data analysis in 2006 and 2007 in gathering
                     information for our current report. One LEA official told us that
                     FinCEN was a leader on financial intelligence, but did not provide
                     much trend and analysis data and needs to improve in this area.
                     Another LEA official said that LEAs were quite comfortable
                     performing their own analyses of BSA data. This raises a question
                     of how best can FinCEN meet its mandated responsibility to

36
  Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze Bank Secrecy Act
Data But Challenges Remain, OIG-06-030 (May 18, 2006).



                     TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for              Page 25
                     Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                      provided analytical support to law enforcement. In this regard, we
                      believe continued and improved outreach by FinCEN with LEAs is
                      essential to define FinCEN’s role in this area.

BSA-Related Cost and Performance Data Are Limited
                      Neither cost data nor performance results data are readily available
                      or sufficiently complete to aid in assessing and coordinating BSA
                      enforcement and compliance efforts.

                      The Full Cost of Managing BSA-Related Activities Is Unknown

                      The amount of resources expended on BSA-related activities by
                      Treasury organizations is not readily available. Furthermore, the
                      amount of resources devoted government-wide to BSA-related
                      activities is unknown. We found that for the most part, agencies
                      do not keep track of the resources, either dollars or people,
                      devoted to BSA-related activities.

                      Although Treasury reported37 that it spent about $420 million in
                      fiscal year 2006, with a workforce of nearly 2,100 employees, to
                      fight financial crimes and the financial war on terror, it is not clear
                      how the amount expended can be associated with the BSA-related
                      activities of the various components within Treasury. Additionally,
                      these figures do not include the costs expended by organizations
                      outside of Treasury, such as Federal Reserve, FDIC, and the FBI,
                      that have BSA-related regulatory or law enforcement roles.

                      Treasury does have some cost data available for its organizations
                      involved in BSA-related activities. However, these data do not
                      provide a complete picture for the Department. FinCEN, the
                      administrator of BSA, incurred a total net cost of $101.5 million in
                      fiscal year 2006. This amount includes $24.2 million in imputed
                      financing sources from the IRS for the collection and processing of
                      BSA data and $1.9 million of imputed cost with the Office of
                      Personnel Management. We also obtained BSA-related estimated
                      costs for several components of IRS. During fiscal year 2005,
                      investigative costs for IRS Criminal Investigation casework related
37
  Treasury’s FY 2006 Performance and Accountability Report.
http://www.treas.gov/offices/management/dcfo/accountability-reports/2006-par/Full_Version.pdf

                      TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                  Page 26
                      Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                       to BSA was approximately $64.1 million with 454 employees; and
                       examination costs for the IRS Small Business Self Employed unit’s
                       BSA-related work was about $62 million with a workforce of 604.
                       OCC estimated that it spent about $13.7 million on BSA-related
                       responsibilities in fiscal year 2005. OTS has field examination
                       hours available on timesheets but did not capture these data in its
                       management information system and could not provide an estimate
                       of the cost of carrying out the examinations.

                       Most of the non-Treasury organizations with BSA-related
                       responsibilities that we contacted do not track the resources they
                       expend on BSA. A few, however, tracked hours related to BSA.
                       For example, FDIC estimated that for fiscal year 2005, it devoted
                       approximately 120,000 examination hours to BSA-related work.

                       Available Performance Data Are Not Sufficient to Assess
                       BSA-Related Activities

                       Organizations with BSA enforcement and compliance
                       responsibilities generally did not use performance measurement
                       data to assess the effectiveness of their BSA-related activities.
                       Most of the organizations that we contacted have not developed
                       performance measures for BSA-related activities nor do they have
                       management information systems that collect BSA performance
                       data.

                       Office of Management and Budget’s Assessments of Treasury
                       BSA-related Programs Yields Mixed Results

                       In its 2006 evaluation of Treasury BSA-related programs, the
                       Office of Management and Budget (OMB) reported varying levels of
                       success.38 In terms of FinCEN’s BSA administration, OMB rated the
                       program as “results not demonstrated”39 primarily because the
                       program had no long term performance measures or targets to
                       indicate mission accomplishments. OMB noted that the program did
                       have annual performance goals which focus on BSA


38
  The evaluation for fiscal year 2006 is the latest available OMB evaluation of BSA-related programs..
39
  Results not demonstrated means that the program has not been able to develop acceptable
performance goals or collect data to determine whether it is performing.

                       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                  Page 27
                       Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                       implementation. OMB also noted that good progress has been
                       made in executing MOUs between FinCEN and the regulators.

                       With regard to BSA analysis, OMB rated Treasury’s (i.e., FinCEN’s)
                       effort as “adequate.”40 OMB found that the program has long term
                       performance measures, but noted that more time is needed to
                       evaluate the usefulness and impact of the program’s analysis
                       activities. Specifically, no evaluation has yet been made to
                       determine the effectiveness of FinCEN’s BSA data analysis efforts
                       in combating terrorism, money laundering, and financial crime.

                       OMB rated FinCEN’s data collection, retrieval, and sharing as
                       “moderately effective,”41 but noted that more work is needed to
                       measure the quality of data collected. The program has shown
                       substantial increases in users accessing data directly, the
                       percentage of filings submitted electronically, and improved cost
                       effectiveness for electronic filings.

                       Specific BSA Performance Measures Have Not Been Established by
                       Most Organizations

                       We contacted organizations with BSA-related responsibility to
                       determine whether they had established performance measures for
                       their BSA-related activities. Only FinCEN and IRS’s Small Business
                       Self Employed unit, which performs compliance examinations of
                       casinos, MSBs, and certain other non-bank financial institutions,
                       had performance measures for BSA-related activities or that could
                       be construed to include BSA activity. In this regard, FinCEN had
                       specific BSA-related performance measures. IRS internally
                       measured certain outputs from its BSA-related activities.

                       FinCEN had the following four performance measures in fiscal year
                       2006 and 2007 related to BSA management or enforcement:




40
   Adequate describes a program that needs to set more ambitious goals, achieve better results, improve
accountability or strengthen its management practices.
41
   A program rated Moderately Effective has set ambitious goals and is well-managed. A Moderately
Effective program is likely to need to improve its efficiency or address other problems in the program’s
design or management in order to achieve better results.

                       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                 Page 28
                       Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                       •   Percentage of customers finding FinCEN’s analytic support
                           valuable

                       •   Percentage of customers satisfied with BSA E-Filing42

                       •   Number of federal and state regulators with which FinCEN has
                           established information-sharing MOUs

                       •   Average time to process enforcement matters (in years)

                       Data from Treasury’s 2006 and 2007 Performance and
                       Accountability Reports showed that FinCEN met its target each
                       year for three of the four measures. :

                           •   Analytic support (goal not met in 2006, met in 2007): In
                               2006 FinCEN reported its baseline goal for customers finding
                               its analytic support valuable as 75 percent. FinCEN reported
                               that, based on data from surveys on strategic analytical
                               products, investigative case reports, and investigative
                               targets, 69 percent of customers found its analytic support
                               valuable. FinCEN did not meet its goal. FinCEN indicated that
                               it would set future targets based on a different measure. In
                               2007, the actual result was 82 percent satisfaction.

                           •   Satisfaction with BSA E-Filing (goal met in 2006 and 2007):
                               In 2006, FinCEN reported 92 percent of its customers were
                               satisfied with BSA Direct E-Filing. That percentage improved
                               to 94 percent in 2007. FinCEN had set its baseline goal for
                               customers satisfied with BSA Direct E-Filing at 90 percent.
                               FinCEN met its goal and will assess whether a more
                               ambitious target is achievable.

                           •   Information sharing MOUs (goal met in 2006 and 2007):
                               FinCEN had a baseline goal of having established 45
                               information-sharing MOUs with federal and state regulators
                               by the end of fiscal year 2006. FinCEN met its goal, with a
                               total of 48 MOUs in place at the end of the fiscal year. In
                               2007, FinCEN reported 50 MOUs in place.

42
  BSA E-Filing is the system FinCEN developed that allows financial institutions to electronically file
BSA reports.

                       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for                     Page 29
                       Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
   •   Processing enforcement matters (goal met in 2006, not met
       in 2007): FinCEN had a goal of processing enforcement
       matters within an average of 1 year. FinCEN met its goal in
       2006, with an average time to process enforcement matters
       of 1.0 years. The average time increased slightly to 1.1
       years in 2007.

IRS Small Business Self Employed unit developed numerous output-
focused (internal use) measures for its BSA-related activity. These
measures include data on investigative case closures by type (such
as money transmitter, check casher, casino, or other entity), hours
worked per case, referrals to IRS Criminal Investigation, and
referrals to examination. Such measures, however, do not provide
insight into how well the BSA program is functioning.

Federal Audit Reports Cite BSA Management and Enforcement
Weaknesses

Over the last several years, reports issued by the Government
Accountability Office, the FDIC OIG, the Treasury Inspector
General for Tax Administration, and our office have identified
weaknesses in BSA management and enforcement activities. More
specifically, the reports identified that the BSA program is
hampered by insufficient financial institution compliance with
reporting requirements, inadequate federal regulator enforcement
when reporting deficiencies are identified, and a need for
improvement in the quality, analysis, and management of BSA
data. These reports are listed in appendix 3.

Few Agencies Separately Track BSA Work

As previously discussed, BSA compliance oversight is the
responsibility of many federal regulators. In our interviews with
these organizations, we asked whether they captured data on BSA-
related work in their respective management information systems.
We were told by 7 of the 8 federal regulators – NCUA, FDIC,
Federal Reserve, SEC, OCC, OTS, and IRS (IRS Small Business Self
Employed) – that BSA-related work was tracked in some fashion.
Only CFTC did not track BSA-related activities. In addition, all
LEAs, which use BSA data to assist their investigations, track their
TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 30
Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
             case work, but they do not maintain BSA-related case work
             separately.

             Of the seven federal regulators tracking BSA-related activity data,
             two organizations – IRS Small Business Self Employed and NCUA –
             have separate management information systems specifically
             devoted to BSA-related work. In October 2004, IRS Small Business
             Self Employed established a system to support its newly
             established Office of Fraud/BSA. The system tracks time devoted
             to BSA-related activities during examinations, findings, and
             referrals to FinCEN and IRS Criminal Investigation. The system also
             provides ad hoc reports for those managing BSA workload. NCUA
             maintains a separate system that tracks BSA violations, copies of
             written agreements for corrective action, and other related
             information. In addition, it maintains a Compliance Violation Report
             Log, which collects BSA data on compliance violations.

Concluding Observations
             BSA is an essential tool in the government’s efforts to combat
             money laundering and terrorist financing. Congress has given the
             Secretary of the Treasury extraordinary and discretionary authority
             to manage and enforce BSA. The Secretary has delegated the
             authority to FinCEN to enact regulations delineating the types of
             records that financial businesses and institutions are required to
             maintain and the manner in which they must be reported. In
             enforcing these regulations, FinCEN has a variety of civil, criminal,
             and other measures available, and can petition the federal courts to
             enforce any such sanctions.

             Although the Under Secretary has direct authority over FinCEN, the
             agency responsible for administering BSA, TFI lacks direct authority
             over most of the other entities with BSA-related responsibility.
             These include the federal regulators responsible for BSA
             compliance by the financial institutions and the numerous federal
             LEAs, which use BSA data for investigatory purposes. Without
             direct line authority, it would be difficult to expect that TFI and
             FinCEN can give complete assurance that BSA program objectives
             are being met. To increase the Under Secretary’s (Treasury’s)
             authority to provide greater assurance and accountability would

             TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 31
             Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
           require significant government restructuring, and may not achieve
           any additional benefit. Evaluating the cost/benefit of such a
           restructuring was not within the scope of our review.

           To strengthen the current BSA regulatory framework, Treasury,
           through FinCEN and IRS, established MOUs to foster coordination
           and communication on BSA-related matters. However, it is too
           early to tell how well these MOUs are working and whether the
           information sharing efforts through the MOUs are sustainable in the
           long term. Future work by our office is planned to look at this area.

           Also of concern, a good structure does not exist for federal LEAs
           to inform FinCEN regularly of the extent to which FinCEN’s analysis
           of BSA data is useful to them; such feedback, when it occurs, can
           be years after the fact. Moreover, BSA cost and performance data
           is currently very limited. We believe that better cost and
           performance data could help the Under Secretary, FinCEN, and
           other stakeholders determine whether BSA resources are being
           appropriately directed, or at least, to identify any anomalies in the
           level of resources devoted to BSA by individual entities with BSA
           oversight responsibilities.

           Accordingly, we are providing recommendations to the Director of
           FinCEN that are intended to improve program coordination and
           communication.

Recommendations
           We recommend that the Director of FinCEN do the following:

           1. Establish a plan to periodically assess whether the MOUs
              between FinCEN and other federal and non-federal organizations
              are achieving their intended purpose of improving and enhancing
              the level of interagency cooperation in the area of BSA
              examination and compliance and, if shortfalls are identified,
              appropriate changes are made to these agreements.




           TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 32
           Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
   Management Comments

   FinCEN concurred. FinCEN said its MOUs with partner
   regulators include a requirement that signatories meet at least
   annually to evaluate the effectiveness of information sharing.
   The meetings provide an opportunity to discuss respective uses
   of shared information, solicit views on ways in which to
   enhance cooperation, and allow all parties to discuss potential
   changes to the MOUs. FinCEN’s Office of Compliance also
   holds periodic liaison meetings. In February 2008, FinCEN
   commissioned a customer satisfaction survey of partner
   regulators with which it has concluded MOUs. The survey will
   measure how partner regulators rate the value of information
   exchanged. FinCEN considers the recommendation closed.

   OIG Comments

   We believe that FinCEN’s actions, if implemented as described,
   meet the intent of our recommendation.

2. Determine a means for ensuring that FinCEN and law
   enforcement agencies sufficiently communicate about the
   extent to which FinCEN should use its analytic capabilities to
   support the agencies in their investigations.

   Management Comments

   FinCEN concurred. FinCEN said it engages in a number of
   activities designed to enhance communications with law
   enforcement agencies and to determine ways that the bureau’s
   analytical efforts can complement law enforcement investigative
   efforts. FinCEN cited examples of these activities, including
   having representatives from a number of federal law
   enforcement agencies on-site at FinCEN and four liaisons that
   perform outreach with state and local law enforcement in their
   geographic areas. FinCEN also will administer a survey
   instrument to solicit input from law enforcement customers on
   potential strategic initiatives and methods to ensure FinCEN
   analytical products and services meet their investigative needs.
   FinCEN estimates it will administer and complete this survey is
   December 2008.
TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 33
Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
    OIG Comments

    We believe that FinCEN’s actions, if implemented as described,
    meet the intent of our recommendation.

3. Work with Treasury and non-Treasury regulatory organizations to
   develop BSA-related performance measures or indicators to track
   results achieved.

    Management Comments

    FinCEN concurred. Subsequent to completion of our audit
    fieldwork, FinCEN developed a BSA-related performance
    measure to track results achieved from Treasury and non-
    Treasury regulatory organizations. The measure reflects the
    percentage of bank examinations conducted by the federal
    banking agencies indicating a systemic failure of anti-money
    laundering programs. In addition, as noted above, in February
    2008 FinCEN commissioned a customer satisfaction survey of
    partner regulators with which it has concluded MOUs to
    measure how regulators rate the value of information exchange
    under the MOUs and identify ways to enhance BSA examination
    and compliance cooperation. FinCEN will evaluate the survey
    results and set future targets. FinCEN estimates it will complete
    action on this recommendation by September 2008.

    OIG Comments

    We believe that FinCEN’s actions, if implemented as described,
    meet the intent of our recommendation.




 TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 34
 Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                               ******

We would like to extend our appreciation to TFI and the various
other agencies we contacted, both inside and outside of Treasury,
for the cooperation and courtesies extended to our audit staff
during the audit. If you have any questions, please contact me at
at (617) 223-8640.


/s/
Donald P. Benson
Director




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 35
Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
Appendix 1
Objective, Scope and Methodology




The objective of this review was to identify and describe
Treasury’s authority and responsibility for the administration of the
Bank Secrecy Act (BSA). To meet our objective, we gathered
information to answer the following questions:

•   Which major domestic organizations are involved in the
    enforcement and compliance of BSA and what authority does
    Treasury have over the BSA-related efforts of these
    organizations?
•   How does Treasury direct and coordinate BSA enforcement and
    compliance?
•   Are government-wide BSA costs and performance data available
    to link resources to results?

We began this review by determining the roles and relationships of
all government entities, including self-regulatory organizations,
involved with managing and enforcing BSA and the USA PATRIOT
Act. We determined which entities, other than FinCEN which
administers BSA, had a significant role in assisting with BSA
compliance and enforcement. This involved researching the public
information available on organizations’ Web sites and interviewing
representatives from those organizations. We focused on the
organizations’ missions and their statutory and regulatory
authorities and responsibilities. We included law enforcement
agencies in the discussion of agencies that use BSA data because
these federal users, through their investigative efforts, could
identify concerns and provide information to Treasury and, more
specifically FinCEN that could improve management of the
program.

We requested information from each organization about its funding,
how much it specifically allocates to BSA management and
enforcement, the amount of resources it devotes to BSA-related
activities, its management information systems, and its
performance measures.

We reviewed (1) laws and regulations pertaining to BSA and the
USA PATRIOT Act, (2) congressional testimony by officials
responsible for BSA and the USA PATRIOT Act in their respective
organizations, (3) Government Accountability Office reports on
BSA and the USA PATRIOT Act, (4) Congressional Research
TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 36
Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
Appendix 1
Objective, Scope and Methodology




Service reports for Congress, (5) Department of the Treasury
Directives and Orders, (6) the U.S. Money Laundering Threat
Assessment 2005, (7) various Treasury and non-Treasury Office of
Inspector General audits, and (8) memoranda of understanding. We
also interviewed the Under Secretary for Terrorism and Financial
Intelligence and representatives from 28 organizations--26 entities
within the federal government and 2 self-regulatory organizations.

We conducted our review from February 2005 to December 2006
in accordance with generally accepted government auditing
standards. We continued to seek clarification of certain information
from various entities through September 2007.




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for            Page 37
Bank Secrecy Act Is Spread Across Many Organizations (OIG 08-030)
                        Appendix 2
                        Key Federal Anti-Money Laundering Laws




                        This appendix includes a chronology and brief description of the
                        key federal laws supporting BSA and anti-money laundering efforts
                        in the U.S.

                        Bank Secrecy Act of 1970.43 The Bank Secrecy Act (BSA) focuses
                        on financial institutions’ responsibility for maintaining records and
                        reports which help identify the source, volume and movement of
                        currency and other monetary instruments transmitted into or out of
                        the United States. This information is passed on to federal officials
                        so that law enforcement can apprehend criminals by following
                        money trails.44 The act contains both civil and criminal penalties for
                        violations of its reporting requirements. Regulations promulgated
                        under the act require domestic financial institutions to file reports
                        for cash transactions exceeding $10,00045 and to file a SAR for
                        transactions exceeding $5,00046 that the institution knows,
                        suspects, or has reason to suspect is intended to evade any federal
                        law or regulation, involves illegally obtained funds, or has no
                        business or apparent lawful purpose.47

                        Money Laundering Control Act of 1986. 48 The Money Laundering
                        Control Act of 1986 criminalizes money laundering, which the act
                        defines as conducting or attempting to conduct a financial
                        transaction with property derived from an unlawful activity with
                        the purpose of concealing or disguising the source. The law also
                        criminalizes structuring or the attempt to structure a financial
                        transaction to avoid the reporting requirement. In addition, the act
                        makes it a crime to knowingly engage in a monetary transaction
                        involving unlawfully gained property with a value greater than
                        $10,000.




43
   Pub. .L. No. 91-508 (codified, as amended, at 12 U.S.C. § 1829b; 12 U.S.C. §§ 1951-1959; 31
U.S.C. § 5311 et seq.).
44
   31 U.S.C. § 5312(a)(2) defines the term “financial institution” to include banks, credit unions, thrifts,
broker-dealers, insurance companies, money services businesses, pawnbrokers, casinos, auto dealers,
travel agencies, etc.
45
   31 C.F.R. 103.22(b)(1).
46
   The threshold is generally $5,000 but for MSBs it is $2,000 at the point of sale.
47
   31 C.F.R. 103.18.
48
   Pub. .L. No. 99-570, § 1352 (codified, as amended, at 18 U.S.C. §§ 1956-1957).

                        TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
                        Administration Is Spread Across Many Organizations (OIG 08-030)        Page 38
                          Appendix 2
                          Key Federal Anti-Money Laundering Laws




                          Annunzio-Wylie Anti-Money Laundering Act of 1992.49 This law
                          authorizes the Secretary of the Treasury to guard against money
                          laundering through financial institutions and to require those
                          institutions to implement anti-money laundering programs. Under
                          this law, the Secretary could require filings of SARs. With this law,
                          Congress also increased the penalties, including the revocation of
                          their charters, for depository institutions that violate federal anti-
                          money laundering laws. The act also requires the Secretary to
                          establish a Bank Secrecy Act Advisory Group, whose purpose is to
                          provide Treasury and FinCEN with advice and expertise on BSA-
                          related matters, including prospective regulations. In March 1994,
                          the Secretary of the Treasury announced the establishment of the
                          BSA Advisory Group, which is comprised of high-level
                          representatives from financial institutions, federal law enforcement
                          agencies, regulatory authorities, and others from the private and
                          public sectors.

                          Money Laundering Suppression Act of 1994.50 This law was
                          enacted to ease the large influx of currency transaction reports
                          being filed in the early 1990s. The statutory amendments mandate
                          exemptions from currency transaction reporting in the case of
                          customers that are other banks, certain governmental entities, or
                          businesses for which reporting would serve little or no law
                          enforcement purpose. The amendments also authorize Treasury to
                          exempt certain other businesses which regulators were having
                          difficulty analyzing. The act directs the Secretary of the Treasury
                          to designate a single agency to receive SAR filings;51 and clarifies
                          BSA’s applicability to state-chartered and tribal gaming
                          establishments.52 It also requires all money transmitters, whether or
                          not they are registered as a money transmitter in any state, to
                          register with the Secretary of the Treasury.53

                          Money Laundering and Financial Crimes Strategy Act of 1998.54
                          This law directs the President, acting through the Secretary of the

49
     Title XV of P.L. 102-550 (codified at various sections of Titles 12 and 31 of the U.S. Code).
50
     Title IV of Pub. L. No. 103-325 (codified at various sections of title 31 of the U.S. Code).
51
     31 U.S.C. § 5318 note.
52
     12 U.S.C. § 5312(a)(2)(X).
53
      31 U.S.C. § 5330(a)(1)
54
     P.L. 105-310 (codified at 31 U.S.C. § 5340 et seq.).

                          TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
                          Administration Is Spread Across Many Organizations (OIG 08-030)        Page 39
                      Appendix 2
                      Key Federal Anti-Money Laundering Laws




                      Treasury in consultation with the Attorney General, to develop a
                      national strategy to fight money laundering and related financial
                      crimes. The law calls for the designation of certain areas as areas
                      in which money laundering and related financial crimes are
                      extensive or present a substantial risk and shall be an element of
                      the national strategy. It also provides for grants to state and local
                      law enforcement units to help fight money laundering in such
                      areas.55

                      Title III of the USA PATRIOT Act of 2001.56 In response to the
                      September 11 terrorist attacks, Congress passed the USA
                      PATRIOT Act. The act requires each financial institution to
                      establish an anti-money laundering program. The program must
                      include development of internal procedures, designation of a
                      compliance officer, an employee training program, and an
                      independent audit program to test the institution’s anti-money
                      laundering program.57

                      The act also requires that broker-dealers file SARs58 and that
                      anyone engaged in a trade or business who receives $10,000 cash
                      in one transaction file a report with FinCEN identifying the
                      customer and specifying the amount and date of the transaction.59
                      The act makes it a crime to knowingly conceal more than $10,000
                      in cash or other monetary instruments while attempting to
                      transport it into or outside of the United States.60

                      Title III of the act is the International Money Laundering Abatement
                      and Financial Anti-Terrorism Act of 2001.61 It amended the BSA to
                      allow the Secretary of the Treasury to require domestic financial
                      institutions and agencies to take special measures if reasonable
                      grounds exist that a jurisdiction, financial institution, or types of

55
   31 U.S.C. § 5354(a).
56
   Pub. L. No. 107-56. The acronym USA PATRIOT stands for “Uniting and Strengthening America by
Providing Appropriate Tools Required to Intercept and Obstruct Terrorists.”
57
   31 U.S.C. § 5318(h).
58
   Pub. L. No. 107-56, title III, § 356.
59
   31 U.S.C. § 5331.
60
   31 U.S.C. § 5332.
61
   Pub. .L. No. 108-458, § 6202, named title III the International Money Laundering Abatement and
Financial Antiterrorism Act of 2001..

                      TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
                      Administration Is Spread Across Many Organizations (OIG 08-030)        Page 40
                       Appendix 2
                       Key Federal Anti-Money Laundering Laws




                       accounts are of primary money laundering concern. Specific special
                       measures would be taken only after consultation with, among
                       others, the Chairman of the Federal Reserve and the Secretary of
                       State.62

                       The special measures generally involve (1) retaining more specific
                       records on financial institutions; (2) obtaining information on
                       beneficial ownership of accounts; and (3) obtaining information
                       relating to certain payable-through and correspondent accounts.63
                       The Secretary may prohibit or restrict the opening of these payable-
                       through and correspondent accounts,64 and U.S. financial
                       institutions must establish internal procedures to detect and report
                       money laundered through these accounts.65 In addition, the act
                       prohibits financial institutions and broker-dealers from maintaining
                       correspondent accounts for foreign “shell banks.”66

                       Title III requires each financial institution to establish an anti-money
                       laundering program. The program must include development of
                       internal procedures, designation of a compliance officer, an
                       employee training program, and an independent audit program to
                       test the institution’s anti-money laundering program.67 In addition,
                       upon request, financial institutions must provide information on
                       their anti-money laundering compliance within 120 hours of the
                       request.68 The act also requires financial institutions applying to
                       merge under the Federal Deposit Insurance Act or the Bank Holding
                       Act to show some effectiveness in combating money laundering.69

                       Title III requires that broker-dealers file SARs70 and that anyone
                       engaged in a trade or business who receives $10,000 cash in one


62
    31 U.S.C. § 5318A (a).
63
    Under the PATRIOT Act, a “correspondent account” is defined as an account that is established by an
institution for a foreign bank to handle various financial transactions related to the foreign bank.
64
    31 U.S.C. § 5318A (b)
65
    31 U.S.C. § 5318(i)
66
    31 U.S.C. § 5318(j); 31 CFR 103.175 (h)(B)(2)(i) defines a foreign shell bank as being a foreign bank
without a physical presence in any country.
67
    31 U.S.C. § 5318(h).
68
   31 U.S.C. § 5318(k)(2).
69
   12 U.S.C. § 1842(c)(6); 12 U.S.C. § 1828(c)(11).
70
    Pub. L. No. 107-56, title III, § 356.

                       TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
                       Administration Is Spread Across Many Organizations (OIG 08-030)        Page 41
                         Appendix 2
                         Key Federal Anti-Money Laundering Laws




                         transaction file a report with FinCEN identifying the customer and
                         specifying the amount and date of the transaction.71 The act also
                         makes it a crime to knowingly conceal more than $10,000 in cash
                         or other monetary instruments while attempting to transport it into
                         or outside of the United States.72

                         Title III made FinCEN a bureau within Treasury73 and directed the
                         Secretary to establish a “highly secure network” that allows the
                         BSA reports electronically.74 That would allow FinCEN to provide
                         financial institutions with alerts and other information regarding
                         suspicious activities.

                         Intelligence Reform and Terrorism Prevention Act of 2004. With
                         this law, Congress authorized $16.5 million for FinCEN to develop
                         the BSA Direct program, which is designed to improve the ”highly
                         secure network,” required by Title III of the USA PATRIOT Act.
                         BSA Direct was to provide authorized law enforcement and
                         financial regulatory agencies with Web-based access to FinCEN
                         data. The law also authorized an additional $19 million to provide
                         advanced analytical tools for using data, improve networking to
                         support the FinCEN systems, improve the effectiveness of
                         FinCEN’s Office of Compliance, and to provide development of, and
                         training in the use of, technology to detect and prevent financial
                         crimes and terrorism.75

                         USA PATRIOT Improvement and Reauthorization Act of 2005. This
                         reauthorizing legislation enhanced penalties for terrorism
                         financing;76 amended the Racketeer-Influenced and Corrupt
                         Organizations Act (commonly known as RICO) by adding illegal
                         money transmitters to the definition of “racketeering activity;”77
                         and closed a loophole concerning money laundering through
                         informal money transfer networks.78

71
     31 U.S.C. § 5331.
72
     31 U.S.C. § 5332.
73
     31 U.S.C. § 310.
74
     Pub. L. No. 107-56, § 362 (codified at 31 U.S.C. § 310 note).
75
     Pub. L. No. 108-458, § 6101(2).
76
     Pub. L. No. 109-177, § 402.
77
     Pub. L. No. 109-177, § 403.
78
     Pub. L. No. 109-177, § 405.

                         TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
                         Administration Is Spread Across Many Organizations (OIG 08-030)        Page 42
Appendix 3
List of BSA-Related Audit Reports




This appendix lists Treasury Office of Inspector General BSA-
related audit reports issued from fiscal year 1999 through fiscal
year 2007. It also lists selected BSA-related reports issued by other
audit organizations from fiscal year 2000 through fiscal year 2007.

Treasury Office of Inspector General

FinCEN’s Suspicious Activity Reporting System, OIG-99-032
(Jan 25, 1999)

Financial Crimes Enforcement Network Office of Compliance and
Regulatory Enforcement, OIG-00-014 (Nov. 5, 1999)

Comptroller of the Currency: OCC Examination of Foreign Branch
Offices Compliance With the Bank Secrecy Act, OIG-00-060 (Mar.
3, 2000).

Office of the Comptroller of the Currency Bank Secrecy Act
Examinations Did Not Always Meet Requirements, OIG-00-027
(Jan. 3, 2000).

Assessment of Financial Crimes Enforcement Network’s Strategic
Plan for Fiscal Years 1997-2002, OIG-CA-00-005 (May 8, 2000)

Money Laundering: Review of the Financial Crimes Enforcement
Network’s Use of Artificial Intelligence to Combat Money
Laundering, OIG-01-091 (Sept. 18, 2001).

Bank Secrecy Act: OCC BSA Examination Coverage of Trust and
Private Banking Services, OIG-02-016 (Nov. 29, 2001).

Money Laundering/Bank Secrecy Act: FinCEN Needs to Strengthen
Its Efforts to Deter and Detect Money Laundering in Casinos, OIG-
03-001 (Oct. 1, 2002).

Information Technology: Controls Over the Financial Crimes
Enforcement Network’s Law Enforcement Data Needs
Improvement, OIG-03-007 (Oct. 23, 2002).



TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
Administration Is Spread Across Many Organizations (OIG 08-030)        Page 43
Appendix 3
List of BSA-Related Audit Reports




FinCEN: Reliability of Suspicious Activity Reports, OIG-03-035
(Dec. 18, 2002).

OTS: Enforcement Actions Taken for BSA Violations, OIG-03-095
(Sep. 23, 2003).

Terrorist Financing/Money Laundering: Status Report on the
Establishment of the FinCEN Office of Compliance, OIG-05-030
(Mar. 10, 2005).

FinCEN: Heightened Management Attention Needed Over
Longstanding SAR Data Quality Problems, OIG-05-033 (Mar. 23,
2005).

Terrorist Financing/Money Laundering: Additional Outreach and
System Enhancements are Needed to Encourage Greater Use of
FinCEN’s BSA E-Filing, OIG-05-034 (Mar. 31, 2005).

Bank Secrecy Act: Major Challenges Faced by FinCEN in Its
Program to Register Money Services Businesses, OIG-05-050
(Sep. 27, 2005).

Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to
Better Analyze Bank Secrecy Act Data But Challenges Remain,
OIG-06-030 (May 18, 2006).

Bank Secrecy Act: OCC Did Not Take Formal Enforcement Action
Against Wells Fargo Bank for Significant BSA Deficiencies, OIG-06-
034 (Aug. 18, 2006).

Treasury Inspector General for Tax Administration

The Program for Ensuring Compliance With Anti-Money Laundering
Reporting Requirements Should Be Improved, TIGTA-2001-40-024
(Dec. 26, 2000).

Additional Efforts Are Needed to Improve the Bank Secrecy Act
Compliance Program, TIGTA-2004-30-68 (Mar. 12, 2004).



TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
Administration Is Spread Across Many Organizations (OIG 08-030)        Page 44
Appendix 3
List of BSA-Related Audit Reports




Federal Deposit Insurance Corporation Office of Inspector General

FDIC’s Supervision of a Financial Institution’s Compliance With the
Bank Secrecy Act, FDIC OIG 05-008 (Mar. 2005).

Government Accountability Office

USA PATRIOT Act: Additional Guidance Could Improve
Implementation of Regulations Related to Customer Identification
and Information Sharing Procedures, GAO-05-412 (May 2005).

Information Security: Internal Revenue Service Needs to Remedy
Serious Weaknesses Over Taxpayer and Bank Secrecy Act Data,
GAO-05-482 (Apr. 2005).

Bank Secrecy Act: Opportunities Exist for FinCEN and the Banking
Regulators to Further Strengthen the Framework for Consistent
BSA Oversight, GAO-06-386 (Apr. 2006).

Bank Secrecy Act: FinCEN and IRS Need to Improve and Better
Coordinate Compliance and Data Management Efforts, GAO-07-
212 (Dec. 2006).




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
Administration Is Spread Across Many Organizations (OIG 08-030)        Page 45
Appendix 4
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
Administration Is Spread Across Many Organizations (OIG 08-030)        Page 46
Appendix 4
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
Administration Is Spread Across Many Organizations (OIG 08-030)        Page 47
Appendix 4
Management Response




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
Administration Is Spread Across Many Organizations (OIG 08-030)        Page 48
Appendix 5
Major Contributors to This Report




Eastern Field Audit Office (Boston)

Stephen Syriala, Audit Manager (Retired)
Alex Taubinger, Auditor

Western Field Audit Office (San Francisco)

Benny Lee, Director (Retired)
David Bach-y-Rita, Auditor
Jack Gilley, Auditor (Retired)
Ernest Lui, Auditor
John Mansfield, Auditor

Washington, D.C.

Myung Han, Referencer




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
Administration Is Spread Across Many Organizations (OIG 08-030)        Page 49
Appendix 6
Report Distribution




The Department of the Treasury

Under Secretary for Terrorism and Financial Intelligence
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Financial Crimes Enforcement Network

Director

Office of Management and Budget

OIG Budget Examiner




TERRORIST FINANCING/MONEY LAUNDERING: Responsibility for Bank Secrecy Act
Administration Is Spread Across Many Organizations (OIG 08-030)        Page 50
